                                  EXECUTIVE SUMMARY


The Securities and Exchange Commission (SEC), Office of Inspector General (OIG) sought to
determine whether the SEC’s current data back-up procedures were reasonably effective in
insuring that back-up data was available and complete in the event a contingency occurred
requiring the restoration of back-up data. The OIG tasked Tichenor & Associates to evaluate the
effectiveness of back-up procedures to minimize loss for data residing on Securities and
Exchange Commission mainframe and network computer systems.

We found that back-up activities were reasonably effective to minimize data loss but that
improvements were needed in the areas of:

•   Written policies and procedures for back-up activities,
•   Training of back-up operators and their alternates,
•   Disaster recovery and contingency planning, and
•   Security awareness training.

SEC, and its office responsible for data back-up procedures, the Office of Information and
Technology (OIT), were aware of the need for improvements. In fact, some of these areas were
highlighted in the 1996 through 1998 reports issued by SEC under the Federal Managers’
Financial Integrity Act (FMFIA) and OIT had taken some actions, especially in the area of
security. However, these actions were limited, and had not yet been implemented by the
personnel responsible for back-up procedures at the SEC regional and district offices.

Our findings and recommendations are included in the Findings section of this report.




                                                1
                                      BACKGROUND


The United States Securities and Exchange Commission (SEC), created under the Securities and
Exchange Act of 1934, is an independent, nonpartisan, quasi-judicial, regulatory agency. Its
mandate is to administer and enforce the federal securities laws in order to protect investors,
maintain fair, honest, efficient markets, and facilitate capital formation. The SEC is composed
of five members appointed by the President, with the advice and consent of the United States
Senate, for five-year terms.

The Office of Information Technology (OIT), headed by the Chief Information Officer, oversees
all data management systems for the SEC, participates in the investment review process for
information systems, and monitors and evaluates the performance of those information systems.
As part of its handling of data management systems, OIT is responsible for the integrity of the
SEC data back-up systems.

The data managed by OIT for the SEC is maintained using two database management systems
products. One product, ADABAS, is used to support SEC applications operating on an IBM
mainframe. The other product, Sybase, is used to support applications developed and maintained
by OIT in a client-server environment. Sybase is also the database management system
supporting the Electronic Data Gathering, Analysis, and Retrieval (EDGAR). This system is
used by SEC to collect and maintain information from corporate filings to the SEC and is
currently administered by a contractor on-site at the SEC Operations Center in Alexandria,
Virginia. The mainframe operating IBM’s OS-/390, while the network uses operating systems
such as: Novell and, Windows NT.

OIT is responsible for data back-up of the mainframe and other SEC headquarters systems. The
SEC field offices are responsible for the back up of their own network data. OIT uses tape silos
for backing up mainframe data (from an IBM 2003-126 at the Operations Center and an IBM
2003-215 at Headquarters) and individual tape drives network data. For the Internet web site
and its Sybase data management system (DBMS), the SEC uses Sun Microsystems tape back-up
systems. The EDGAR contractor is responsible for tape back-up of the EDGAR Stratus
computers.

To provide back-up capability, OIT relies on several software products such as FDR/Upstream,
and ArcServ. FDR/Upstream is used for both mainframe back-ups; ArcServ is used for the
network. The tape back-ups for the mainframe and main servers housed in OIT and
Headquarters are transported and stored off-site by an OIT contractor.

The Computer Security Act of 1987 emphasizes that improving the security and privacy of
sensitive information in Federal computer systems is in the public interest, and creates a means
for establishing minimum acceptable security practices for such systems. OMB Circular A-130,
dated February 8, 1996, calls for increased protection for Federal computers by all Executive
departments and agencies. Specifically, it requires each department and agency to:


                                               2
•   Establish a management process to assure that appropriate safeguards are built into all new
    computer applications;
•   Assign responsibility for security of each new installation to a management official;
•   Establish personnel security policies for both Federal and contractor personnel;
•   Conduct periodic audits of all sensitive computer applications;
•   Include security requirements in specifications for the acquisition or operation of computer
    facilities or related services;
•   Conduct periodic risk analysis of each computer installation; and,
•   Assure that appropriate contingency plans are developed to reduce the effect of computer
    breakdowns, fires, or natural disasters.

Presidential Executive Order 130.11 of July 17, 1996, assigns the responsibility for these
functions to the Agency’s Chief Information Officer (CIO). The CIO is to have the visibility and
management responsibilities necessary to advise the agency head on the design, development
and implementation of those information systems.




                                               3
                              SCOPE AND METHODOLOGY


The SEC Office of Inspector General tasked Tichenor & Associates to evaluate the effectiveness
of back-up procedures to minimize loss for data residing on SEC mainframe and network
systems in the event of a contingency. We reviewed pertinent files and policy documents,
observed relevant processes, tested back-up file restoration, and interviewed key OIT personnel.
We also review pertinent laws, regulations, and Office of Management and Budget Circulars.
With regard to the EDGAR system (operated by a contractor), we limited our work to assessing
the adequacy of SEC back-up policies and procedures, the adequacy of contractor back-up
policies and procedures, and evaluating the results of contractor back-up testing results. The
audit was performed at the SEC Headquarters Office in Washington D.C., the SEC Operations
Center in Alexandria, Virginia, and the SEC Regional and District Offices in Atlanta, Boston,
Chicago, Denver, Fort Worth, Los Angeles, Miami, New York, Philadelphia, Salt Lake City, and
San Francisco.

Specifically, our audit objectives were to evaluate the adequacy of SEC controls over:

•   Back-up and storage of programs and data files,
•   Training of back-up operators,
•   Disaster recovery and contingency planning, and
•   Security awareness training.

Our audit was conducted in accordance with Government Auditing Standards. We also used the
COBIT (Control Objectives for Information and Related Technology) Audit Guidelines and the
Computerized Information Audit Manual established by the Information Systems Audit and
Control Foundation. As necessary, we also used applicable industry standards defining best
practices for data and record management, server administration, and electronic data processing
operations.

Our audit fieldwork was conducted between January and September 1999.




                                                4
                                            AUDIT FINDINGS


We found that back-up activities were reasonably effective to minimize data loss. Overall
personnel responsible for back-up activities were aware of their roles and responsibilities,
physical security was good, and our testing of back-up files showed no instances when files
could not be recovered. However, we found that improvements were needed because the back-
up activities existed with little or no guidance from OIT, or if guidance was available, personnel
were not aware of it. Instead, back-up personnel relied on their experience and knowledge of
industry practices. While reliance on knowledge and experience are critical, they are no
substitute for agency-wide written policies and procedures, training, contingency planning, and
security awareness. Specifically, OIT needs to:

•   Provide written policies and procedures for back-up activities,
•   Train back-up operators and their alternates,
•   Implement disaster recovery and contingency plans, and,
•   Implement security awareness training.

Our visits to OIT and the SEC Regional and District Offices showed that lack of guidance
caused procedures to vary from office to office as shown in the following matrix:

OIT and Regional and District Offices                  NY Bos Phil Mia Atl Chi Den FW SL LA SF OIT
No SEC approved written policies and procedures         X       X   X   X   X   X   X   X   X   X   X   X
were available on site
Servers were not secured or door to computer room                   X               X
were left unlocked
Computer room had no temperature regulating             X       X   X   X   X   X   X   X   X   X   X
devices or fire suppression equipment
Back-up personnel did not fully understand back-up      X                           X       X   X   X
and storage software and hardware
Back-up and storage personnel primary job function                                  X       X       X
was not Information Technology
Personnel did not have adequate training on back-up     X       X   X   X   X   X   X       X   X   X
and storage software/hardware
Alternate operators did not have adequate                       X   X   X   X       X   X   X
skills/knowledge to handle back-up and storage
No SEC approved disaster and contingency plans          X       X   X   X   X   X   X   X   X   X   X   X
were available on site
No security awareness training was made available to    X       X   X   X   X   X   X   X   X   X   X   X
personnel on site
Personnel took data tapes home over the weekend as              X   X   X   X
“safety measure”



SEC was aware of some of these problems and had reported on them in its FMFIA reports in
1996 through 1998. For example, SEC reported in 1996, that it lacked a long-term disaster
recovery plan to maintain the continuity of the EDGAR systems, and showed that corrective
action was being taken. In 1996 through 1998, SEC reported that ADP security controls should

                                                            5
be enhanced, strengthened, and communicated to all staff and indicated corrective action was
being taken. However, we found no evidence that these corrective actions had been
implemented by the SEC Regional and District Offices.

Finding 1: Provide Policies and Procedures for Back-Up Activities

OMB Circular A-130 requires Federal agencies to document all policies and procedures relating
to the functions of computerized activities. This circular requires that such policies and
procedures be applied agency-wide, on a consistent basis. SEC did not have current written
policies and procedures in place to govern and monitor such critical areas as (1) data back-up
procedures, (2) storage of data, and (3) security. As a result, personnel responsible for these
areas at the Regional and District SEC offices had to rely on their own judgement and experience
to ensure adequate back-up. We recognize that reliance on judgement and experience are an
integral part of a system of management. However, written agency-wide policies and procedures
are needed to ensure consistent and complete application.

SEC has been aware of these problems for several years and had taken limited steps to correct
them. In December 1998, OIT had initiated a document that provided general policy guidance
and program requirements for Information Technology (IT) security. This document was the
first step of a program designed to establish uniform policies to carry out the SEC’s Information
Technology Security Program. The program was to document and implement security standards,
educate users, technical staff, and system owners, and conduct system certification and
accreditation activities. In September 1999, OIT also drafted procedures for performing weekly
tape back-ups.

Presidential Executive Order 130.11 of July 17, 1996, assigns the responsibility of all IT
functions to the Agency’s Chief Information Officer (CIO). The order provides the CIO with the
authority and management responsibilities necessary to advise the agency head on the design,
development and implementation of those information systems. At SEC, the Associate
Executive Director of Information Technology has been designated the Commission’s CIO. The
CIO is responsible to the Executive Director, Chairman and the Commission for the internal
technological management functions of the Commission.

To ascertain that data was backed up and could be retrieved, we tested back-up and storage data,
at each of the SEC Regional and District Offices. We selected a back-up tape picked at random
from storage. We observed the progress of the restoration of this tape from the ArcServ job
manager screen and when completed, launched the file to verify its readability. At all of the
offices, the reliability and accuracy of the tape identification, the data stored on the tape, and the
prescribed procedures appeared adequate as a result of this test.

While this type of test offers some assurance that data can be restored, it does not provide
assurance that such restoration would occur in a contingency situation. To obtain such
assurance, a test of the system under a contingency would have to be conducted. SEC had not
issued guidance to the regional and district offices on what type of test should be conducted and
how frequently.


                                                  6
With regard to physical security, at the Regional and District Offices, there were no temperature
regulating devices, or fire suppression equipment to protect the “computer room”.       Also, 2 of
11 offices did not have servers secured or did not always keep the doors to the server rooms
locked.

RECOMMENDATIONS

We recommend that SEC:

A.     Design and implement policies and procedures that provide back-up operators and their
       alternates with operating guidance.
B.     Design and implement policies and procedures to control physical security.


MANAGEMENT’S COMMENT

Management believes appropriate polices and procedures exist to provide operating guidance to
personnel responsible for data back up activities. More precisely, three contractors are
responsible for conducting the majority of the agency’s data back-up and that each of these
contractors have extensive and well documented standard operating procedures and conduct
regularly scheduled data back-up and recover activities. The effectiveness of these programs is
evidenced by the audit results showing no instances when files could not be recovered.

In September 1998, the SEC issued an Information Technology Security Policy covering
responsibilities for protecting agency systems and data. Concurrently, OIT issued a series of
technical bulletins identifying specific guidance on standards and implementation practices in
support of the policy. This information was published on the SEC’s intranet, made available to
contractors and COTRs, and incorporated in a variety of training programs.

During 1999, system administration practices were covered with the ADP liaisons as part of the
agency’s NT operating system upgrade. In September 1999, a full day of training was provided
to ADP liaisons on troubleshooting and system administration practices as part of the annual
ADP liaison conference. During the last half of calendar 1999 ADP liaisons and contractor staff
were all involved in contingency planning and disaster recovery activities as part of the SEC’s
Year 2000 program.

Physical security for controlling access and protecting equipment is addressed in the agency’s
security policy and related technical bulletins. However, modifications to buildings were SEC
equipment is located must be requested through the agency’s Office of Personnel and
Administrative Management.


AUDITOR’S RESPONSE




                                                7
We do not agree with management’s response related to Finding 1 and do not think that
appropriate policies and procedures existed or were adequately disseminated to provide
operating guidance to personnel responsible for data back-up activities at the close of fieldwork.

We met with all three contractors and confirmed that all three had consistent practices in place
and that the contractors were conducting regularly scheduled data back-up and recovery
activities. However, except for the EDGAR contractors, approved procedures did not exist.
More precisely, the contractors for the mainframe provided us with a User Guide that showed
how to program the backup, but stated that they did not have actual approved policies and we
were directed to an outdated policy on the intranet. Additionally, the contractor for the
LAN/WAN servers had ad-hoc procedures written up by the contractor for their personal files,
but no authorized written policy existed. Again we were directed to outdated policies on the
Intranet. Only the EDGAR contractors had extensive documentation showing policy and
procedures as well as evidence of each backup and supervisory review, and the EDGAR contract
had a specific contract requirement that they develop and maintain adequate policies and
procedures. The other contractors answer directly to the OIT Operations staff on a daily basis
and are bound by the OIT policies and procedures.

We agree that in September 1998, the SEC issued an Information Technology Security Policy
covering responsibilities for protecting agency systems and data. However, the "Security
Policy" initially only established the office of Security Officer. During our audit the Security
Officer published a security policy outline on the intranet. Portions of the outline were
completed during our audit. However none of the completed topics covered data back-up and
recovery procedures. Furthermore, during our site visits field personnel didn’t have (or know
where to find) guidance related to policies on data backup procedures. In addition, the portion of
the policy related to physical security for controlling access and protecting equipment at the
district and regional offices had not been updated at the close of fieldwork. In addition, regional
and district office personnel had not received and did not know of any security awareness
training that was available to them

The annual conference held in September 1999 with ADP liaison, subsequent to fieldwork,
covered the administration practices related the agency’s migration to the NT operating system.
However, we did not find evidence supporting that the ADP liaisons received any other guidance
during the year covering data back-up policies and procedures. Additionally, during the last half
of calendar 1999, the staff involvement with contingency planning and disaster recovery activity
was limited to headquarters and did not include the regional contingency and disaster recovery
plans.




Finding 2: Train Back-Up Operators and their Alternates



                                                8
OMB Circular A-130 requires regular training to maintain adequate personnel competence and
skill level in the management of information. We found that SEC had not provided training
specifically related to carrying out data back-up and related storage activities to operators
primarily responsible for these activities or to alternate operators (personnel designated to carry
out back-up and storage activities in case primary operators are not available). As a result,
primary operators had varying degrees of knowledge about back-up procedures, and alternates
operators often had only rudimentary skills.

Our discussions disclosed that whereas some primary operators appeared well capable of
handling back-up and storage activities, most alternate operators could only carry out only
minimal tasks. Therefore, alternate operators were not trained to respond to emergencies.

In the absence of regular training, we did find that some operators had ordered manuals from
manufacturers and exchanged information with other operators within the SEC in order to
maintain competence and skills. We also noted that, September 21, 1999, OIT was holding a
training session on Troubleshooting Windows NT (an upgrade of a current system) for ADP
Liaison personnel (primary operators and alternate back-up and storage personnel), and was
making training information available on a Web site. These steps, if incorporated as part of a
required formal training program directed at primary operators and alternates, would greatly
contribute toward better training.

RECOMMENDATION

We recommend that SEC:

A.     Establish a formal training program for primary operators and alternates responsible for
       data back-up and storage activities.


MANAGEMENT’S COMMENT

Management believes that the contractors’ personnel are adequately trained to conduct data
back-up and recovery responsibilities to meet their contractual obligations, but agree that more
vigorous training could be provided to ADP liaisons and their alternates to enhance their
understanding of data back-up and recovery practices. OIT is working with the Office of the
Executive Director on approaches to providing more formal and regularly scheduled training.

AUDITOR’S RESPONSE

Although Management’s response does not specifically address Finding 2 recommendation A,
management does agree that more vigorous training could be provided to ADP liaisons and their
alternates to enhance their understanding of data back-up and recovery practices. We agree with
management’s response that working with the Office of the Executive Director on approaches to
providing more formal and regularly scheduled training for these personnel is the first step in
establishing a formal training program for primary operators and alternates responsible for data
back-up and storage activities.

                                                9
Finding 3: Implement Disaster and Contingency Plans

OMB Circular A-130 requires that Executive departments and agencies assure that appropriate
disaster recovery and contingency plans are developed to reduce the effect of computer
breakdowns, fires, or natural disasters. We found that SEC had not developed or implemented
disaster recovery and contingency plans to handle back-up activities in the event of loss or
interruption of the computer systems. As a result, SEC personnel had no written guidance as to
what action it would have to take in such key areas as (1) off-site processing during power
failures or other crisis, (2) notification of personnel in case of emergency, and (3) priorities as to
what critical data should be recovered. The lack of a disaster recovery and contingency plans
had been reported by the SEC since 1996 in its annual FMFIA reports and SEC had recognized
that the lack of such plans had the potential to impair the mission of the agency.

SEC field personnel expressed concern over the lack of guidance in case of emergency. For
example, most ADP Liaisons indicated that they had some sense of what was the most critical
data to be recovered, and they recognized the value of a formal plan to prioritize data in the
event recovery was necessary, based on criticality to the organization.

RECOMMENDATION

We recommend SEC:

A.     Develop and implement a disaster and contingency plan.

MANAGEMENT’S COMMENT

Management agrees with the finding and recommendation.


Finding 4: Implement Security Awareness Training

The Computer Security Act of 1987 and OMB Circular A-130 emphasize the criticality of
security for Federal computer systems. Since 1996, SEC had been reporting under FMFIA about
the need for the agency to enhance, strengthen, and communicate ADP security controls to all
staff. One of the keystones to security is a strong program of security awareness. Staff involved
with back-up of SEC data indicated that they had not received security awareness training, and
they were not aware if SEC had such a program. As a result, the staff did not know what actions
the agency expected of them in this critical area.

While personnel did not know what the agency expected of them, there was evidence that they
were concerned about security. Some field personnel went to the extraordinary safety measure
of keeping the last data tape for each week of operation stored at home over the weekend.

RECOMMENDATION

                                                 10
We recommend SEC:

A. Develop and implement a security awareness program.

MANAGEMENT’S COMMENT

Management refers to their response to Finding 1, regarding that an extensive security program
is in place at the SEC, and that extensive training has been provided to ADP liaisons and
technical personnel. Management agrees that additional training is beneficial and stated that
recently the security-training program has been extended to include non-technical personnel in
the agency.

AUDITOR’S RESPONSE

We agree that in September 1998, the SEC issued an Information Technology Security Policy
covering responsibilities for protecting agency systems and data. During our audit the Security
Officer published a security policy outline on the Intranet. Portions of the outline were
completed during our audit. However none of the completed topics covered data back-up and
recovery procedures.

Additionally, during fieldwork the Security Officer was developing curriculum to address
agency wide security awareness. Regional and district office personnel had not received and did
not know of any security awareness training that was available to them.




                                              11
                                   MANAGEMENT COMMENTS

Memorandum


March 9, 2000

TO:                      Walter Stachnik
                         Inspector General

FROM:                    Michael Bartell, Chief Information Officer
                         Office of Information Technology

SUBJECT:                 Audit Report No. __ on Data Back-Up Procedures

Thank you for the opportunity to comment on your office’s audit on the SEC’s data back-up procedures.
I am pleased that the audit found that the agency’s procedures, and OIT’s actions in particular, are
effective in minimizing the risk of data loss. OIT agrees in general with the audit recommendations that
improvements could be made to enhance the overall effectiveness of the data back-up and recovery
program. In particular, we agree training of non-OIT personnel could be enhanced and have taken actions
to expand the security and system administration programs to address these concerns.

However, we believe a number of the audit findings presented inaccurate, or incomplete information.
Specifically, a number of OIT personnel responsible for either conducting data back-up activities or
managing contractors responsible for this activity were not interviewed as part of the audit resulting in an
over emphasis on the field office findings as representative of the entire program. Further, in regard to
field office findings, the audit incorrectly states that the ADP liaisons in the regions and districts are not
the primary and secondary personnel responsible for back-up activities. Our understanding is that ADP
liaisons in the region and districts are the primary personnel responsible for backing up systems and data
located on servers in their office and we identified this inconsistency to the audit team.

Finding 1: Provide Policies and Procedures for Back-Up Activities (Recommendation A and B)

OIT Response: We believe appropriate policies and procedures exist to provide operating guidance to
personnel responsible for data back up activities.

Three contractors are responsible for conducting a majority of the agency’s data back-up for the agency’s
systems and data. The three operational areas covered by contractors include helpdesk (conducting
regular server back-ups), mainframe systems, and the EDGAR system. Each of these contractors have
extensive and well documented standard operating procedures and conduct regularly scheduled data back-
up and recovery activities. The effectiveness of these programs is evidenced by the audit test results of
back-up files showing no instances when files could not be recovered.

In September 1998, the SEC issued an Information Technology Security Policy covering responsibilities
for protecting agency systems and data. Concurrently, OIT issued a series of technical bulletins
identifying specific guidance on standards and implementation practices in support of the policy. This
information was published on the SEC’s intranet, made available to contractors and COTRs, and
incorporated in a variety of training programs.

APPENDIX I                                            1
During 1999, system administration practices were covered with the ADP liaisons as part of the agency’s
NT operating system upgrade. In September 1999, a full day of training was provided to ADP liaisons on
troubleshooting and system administration practices as part of the annual ADP liaison conference.
During the last half of calendar 1999 ADP liaisons and contractor staff were all involved in contingency
planning and disaster recovery activities as part of the SEC’s Year 2000 program.

Physical security for controlling access and protecting equipment is addressed in the agency’s security
policy and related technical bulletins. However, modifications to buildings were SEC equipment is
located must be requested through the agency’s Office of Personnel and Administrative Management.

Finding 2: Train Back-Up Operators and their Alternates (Recommendations A)

OIT Response: We believe our contractor staff are adequately trained to conduct data back up and
recovery responsibilities to meet their contractual obligations. We agree that more vigorous training
could be provided to ADP liaisons and their alternates to enhance their understanding of data back-up and
recovery practices. OIT is working with the Office of the Executive Director on approaches to providing
more formal and regularly scheduled training for these personnel.

Finding 3: Implement Disaster and Contingency Plans (Recommendation A)

OIT Response: As part of the SEC’s Year 2000 effort, offices were required to identify the mission
critical activities the agency must conduct during an emergency and their contingency plans for operating
during an emergency. This information was shared with contingency planning personnel throughout the
agency. Also as part of this program, offices identified critical personnel that were required to respond
during any emergencies experienced as a result of the century rollover. OIT worked extensively with
those individuals to ensure they understood their roles and responsibilities and that they implemented the
agency’s plan depending upon the which scenario played out during the rollover period covered by the
plan.

These activities occurred after the audit fieldwork was completed. However, we believe they provided
the agency with a significant foundation on which to build future disaster recovery and contingency
planning activities.

Finding 4: Implement Security Awareness Training (Recommendation A)

OIT Response: As indicated in OIT’s response to Finding 1, an extensive security program is in place at
the SEC. Extensive training has been provided to ADP liaisons and technical personnel. We agree that
additional training is beneficial and recently expanded the security training program to include non-
technical personnel in the agency.

cc:     Darlene Pryor




APPENDIX I                                          2
